Audit Report
Return
to the USDOJ/OIG Home Page
Departmental Critical Infrastructure Protection
Planning for the Protection of Physical Infrastructure
Report No. 02-01
November 2001
Office of the Inspector General
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
IDENTIFICATION OF MISSION ESSENTIAL INFRASTRUCTURE
Recommendation
VULNERABILITY ASSESSMENTS
Recommendation
REMEDIAL PLANS
Recommendation
APPENDIX I     	STATEMENT ON THE GOVERNMENT PERFORMANCE AND RESULTS ACT
APPENDIX II    	STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS
APPENDIX III  	STATEMENT ON MANAGEMENT CONTROLS
APPENDIX IV  	OBJECTIVES, SCOPE, AND METHODOLOGY
APPENDIX V   JUSTICE MANAGEMENT DIVISION RESPONSE TO THE DRAFT REPORT (Not available electronically)
APPENDIX VI   	OIG, AUDIT DIVISION ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT